WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-97

‘Anne Georges Telasco The Florida Bar

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO T only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).
—&

Signature: DW itpt date,

Date: 7/28/21

(Type or print) Name jy. Hope Keating

O mr. © Ms. © wrs. oO Miss
Firm Greenberg Traurig, P.A. : - / |
Address 101 East College Avenue -
City & State Tallahassee, Florida —— | Zip 32301
Phone 850.425.8534 | Email keatingh@gtlaw.com _

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Anne Georges Telasco
Pro Se, Petitioner

(764 Jay Street
‘Rochester, NY 14611
